 AIRSPACE REDESIGN EFFORTS ARE
CRITICAL TO ENHANCE CAPACITY BUT
    NEED MAJOR IMPROVEMENTS
       Federal Aviation Administration

       Report Number: AV-2005-059
        Date Issued: May 13, 2005
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General
           *
Subject:   ACTION: Airspace Redesign Efforts Are Critical           Date:    May 13, 2005
           To Enhance Capacity but Need Major
           Improvements
           Federal Aviation Administration
           AV-2005-059
  From:                                                          Reply to
           David A. Dobbs                                        Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:    Federal Aviation Administrator

           This report represents the results of our audit on the Federal Aviation
           Administration (FAA) National Airspace Redesign (NAR) program, the Agency
           efforts to improve the efficiency of the National Airspace System by redesigning
           the Nation’s airspace. FAA’s airspace redesign efforts are important to enhance
           capacity and meet the demand for air travel, which is rebounding to levels
           experienced in 2000. We periodically met with FAA officials responsible for
           managing airspace redesign efforts, including the Program Director for Air Traffic
           Airspace Management and the Acting Director of Systems Operations and Safety,
           and we have incorporated their comments as appropriate. The Vice President for
           Systems Operations within FAA’s new Air Traffic Organization is now
           responsible for airspace redesign efforts.

           OBJECTIVES
           The objectives of our review were to determine (1) if FAA has an effective
           process to control costs, mitigate risks, and coordinate local, regional, and
           Headquarters NAR efforts, and (2) whether opportunities exist for FAA to make
           airspace redesign efforts more cost effective. We conducted our work in
           accordance with Government Auditing Standards as prescribed by the Comptroller
           General of the United States. Exhibit A describes the scope of our review and the
           methodology we used to achieve our objectives.




                                                   i
BACKGROUND
Airspace redesign efforts have played and will continue to play a critical role in
enhancing capacity, transitioning to more flexible routing, and reducing delays.
FAA’s airspace redesign efforts are highlighted in FAA’s strategic plan, Flight
Plan 2004-2008, as well as the Operational Evolution Plan, the Agency’s
blueprint for enhancing capacity over the next decade.

In 1997, the FAA initiated NAR as a multi-year effort to increase the efficiency of
the National Airspace System. FAA has estimated the cost of its airspace redesign
efforts to be $250 million. FAA requests over $20 million annually for NAR, and
these efforts are funded through the Agency’s Operations account. For fiscal year
(FY) 2005, FAA requested $21.5 million for airspace redesign.

Airspace redesign is managed as a national program encompassing the efforts of
FAA regions and Headquarters. However, local facilities are tasked with the
responsibility to identify and develop NAR projects, and most resources are spent
by the regions on local projects.

RESULTS IN BRIEF
Revamping the Nation’s airspace is critical to enhancing capacity and meeting the
demand for air travel, which is rebounding to 2000 levels in terms of flights and
delays. In fact, the most recent holiday season was projected to be the busiest in
5 years and to exceed 2000 holiday traffic levels by 1.3 percent (a period when air
travel was at a peak). System-wide delays and cancellations also reached a peak
during the December 2004 holiday travel period, with nearly half of all flights
either delayed or canceled during this period.

Airspace changes are critical to get the most benefit from new runways. For
example, the capacity increases and delay reductions envisioned in the Chicago
O’Hare Modernization Plan depend on significant airspace changes. The first
stage of the plan is expected to be complete in 2007 (the new north runway only),
and its combination of airfield and airspace changes will produce more than a
50 percent reduction in the average minutes of projected delay per flight from
19.6 to 9.6 minutes. FAA and Mitre1 analyses show the new north runway,
without corresponding airspace changes, will have little impact on delays.

Even without new runways, we have seen that airspace changes can have an
impact on reducing congestion and enhancing the flow of air travel. FAA’s Choke
Point initiative—the Agency’s effort to revamp airspace in response to delays that
reached intolerable levels in 2000—focused on eliminating bottlenecks east of the

1
    The Mitre Corporation functions as a Federally funded research and development center for FAA.


                                                        ii
Mississippi. FAA reports that the Choke Point initiative reduced delays and
resulted in an annual savings to airspace users of $70 million. This initiative was
successful because it was placed on a fast track, had significant management
oversight, and linked plans and resources—all which are best practices that need
to be transferred to all airspace redesign projects.

We reviewed the 42 approved airspace redesign projects in FY 2004. This
includes major efforts to enhance the flow of air travel in and around Chicago,
New York City, and Los Angeles, as is illustrated in Figure 1.


Figure 1. Three Major Metropolitan Airspace Redesign Initiatives

                                       Chicago:
                                       Redesigning routes and
                                       adding new sectors to
                                       increase departure capacity
                                       and leverage new runways




                                                                     New York/Philadelphia:
  Los Angeles Basin:                                                 Redesigning routes and
  Redesigning routes                                                 realigning airspace to
  to increase arrival                                                increase departure
  capacity and                                                       capacity and arrival
  efficiency                                                         efficiency




We found that FAA’s overall process for controlling costs; mitigating risks; and
coordinating local, regional, and Headquarters efforts is not effective. The
management and oversight of airspace projects is diffused and fragmented
between FAA Headquarters and various local FAA facilities. Specifically, we
found:

   • Cost and schedule estimates for the vast majority of airspace redesign
     projects are not reliable. Cost estimates—for the program as well as
     individual projects—include costs only for planning, not for
     implementation. Therefore, we could not, nor could FAA, determine the
     cost of implementing the 42 projects that were approved as of FY 2004.




                                      iii
   • FAA’s redesign projects are often delayed 3 years or more because of
     changes in a project’s scope, environmental issues, and problems in
     developing new procedures for more precise arrival and departure routes.
     For example, of the 42 approved projects in FY 2004, 7 were affected by
     environmental concerns, 10 by problems in developing new procedures,
     and 21 by changes in a project’s scope.

   • Projects are not effectively coordinated among Agency organizations that
     manage resources (e.g., new equipment and radio frequencies) or linked to
     the Agency’s budget process. This directly affects a project’s
     implementation. We found that 19 of the 42 approved projects in FY 2004
     had unresolved equipment issues.

Greater oversight and control from FAA Headquarters is needed to get the
Agency’s airspace redesign efforts on track. Specifically, FAA needs to:

   • Establish cost and schedule controls for airspace redesign projects and
     incorporate costs for both planning and implementation.

   • Establish procedures to ensure that airspace redesign efforts are coordinated
     with other FAA entities in a timely manner.

   • Prioritize current airspace redesign projects and establish criteria for
     assessing a project’s system-wide impact.

   • Re-evaluate how resources are allocated and used by local and regional
     facilities to determine the most effective way to move forward with
     airspace redesign efforts.

Generally, FAA views our report and its recommendations as a balanced
assessment of the NAR program. FAA stated that changes are underway to
address our recommendations. However, the Agency did not provide specific
information on actions taken or planned to address our recommendations. Given
the important role airspace redesign efforts play in enhancing capacity, a clear
understanding of the specific steps being taken to address our recommendations is
needed.

FAA’s Management and Oversight of Airspace Redesign Efforts
Are Fragmented, Costs and Schedules Are Not Reliable, Risks
Are Not Effectively Mitigated, and Coordination Is Not Effective
FAA managers and air traffic controllers work collaboratively on airspace changes
through numerous regional and local work groups. FAA’s process for developing
and designing airspace projects is explained in its Strategic Management Plan for


                                      iv
Airspace Redesign, as well as in a memorandum of understanding between FAA
and the air traffic controllers’ union. The memorandum of understanding allows
controllers to be assigned to numerous national, regional, and local workgroups.


FAA’s Management and Oversight of Airspace Redesign Are
Fragmented
The airspace redesign process begins at the local FAA facility and is driven by a
“bottom-up” approach, meaning that local and regional air traffic control facilities
are responsible for initiating, conducting, and managing the bulk of the work. The
Airspace Branch Management Office within each of FAA’s regions is responsible
for day-to-day oversight of projects.

Although FAA Headquarters is responsible for approving projects and funding
levels, decision-making and program management are diffused. In practice,
decisions about what projects to fund and at what level are guided by consensus
decision-making through the Airspace Liaison Team (composed of FAA staff and
controllers) and its subgroups. This pits one region against another and makes it
difficult for airspace redesign to function as a national effort. The Choke Point
initiative (completed in 2002) was successful precisely because it was not subject
to this process.

We also found that there is minimal, if any, guidance or oversight by Headquarters
to ensure that project costs and schedule estimates are completed or that projects
are effectively coordinated among Agency organizations. The problems are
traceable to a lack of controls at the FAA Headquarters level. This situation is
exacerbated by the fact that FAA has not issued criteria for assessing a project’s
system-wide impact or ensuring that cost and schedule estimates are reliable.

Cost and Schedule Estimates for Airspace Redesign Projects Are Not
Reliable
FAA estimated that NAR would cost the Agency $250 million, and mid-term
initiatives would be completed in 2008. FAA has never established completion
dates for long-term NAR projects or updated the cost estimate. The $250 million
estimated cost for NAR does not include the cost to implement redesign projects,
nor does it recognize the effect changes in project scope, problems in developing
new procedures, and environmental issues have on cost and schedule estimates.




                                       v
Individual project plans and cost estimates      Table 1. Reasons Why Airspace Cost
                                                 and Schedules Are Not Reliable
we reviewed are not reliable because they
do not clearly identify what is needed to        •   Design teams did not develop
shift a project from the design phase to             estimates beyond the design stage,
implementation (see Table 1). FAA could              and some did not forecast beyond the
not—nor could we—determine the cost of               current fiscal year.
implementing the 42 projects. This makes it      •   Design teams often did not fully
difficult to evaluate NAR projects and their         identify requirements or costs for
merit in terms of enhancing capacity.                implementation.
Although projects can continue to originate      •   Schedules did not allow lead time for
at the facility level, Headquarters must exert       acquiring equipment or developing
much more centralized oversight and                  procedures.
planning.

When our review began, we identified over 80 distinct redesign projects that were
subsequently consolidated or “re-scoped” to 42 during FY 2004. We found it
difficult to determine exactly how many NAR projects there were (as well as the
cost and schedule information of each project) because project information at
Headquarters was not always consistent with information at the regional level.
There is still uncertainty about the accuracy of some information about schedules
and scope.

FAA needs to establish cost and schedule controls for airspace redesign projects
that are reflective of the current budget environment. Cost estimates for NAR
projects should include both planning and implementation costs. This would
improve the flow of NAR projects from identifying problem areas in the National
Airspace System to implementing appropriate solutions. It would also assist in
prioritizing projects based on available resources and potential benefits and
minimize cost and schedule problems.




                                       vi
Airspace Redesign Efforts Face Risks That Can Delay
Implementation
Our analysis of the NAR project charters and              Table 2. Risks Facing
status reports for the 42 approved projects in        Airspace Redesign Projects
FY 2004 reveals a substantial number have                Type of Risk      Number
                                                                              of
implementation issues that could delay or stop the                         Projects
projects (see Table 2).         We found that        Environmental
environmental issues, problems in developing         Issues                    7
new procedures for more precise arrival and          Unresolved
departure routes, and changes in project scope       Resource/Equipment       19
have led to delays of 3 years or more. A number      Issues
of important airspace projects have missed           Re-scoping
                                                                              21
deadlines.
                                                     Lack of Radio
                                                     Frequencies              7
   • The Southern California Redesign project
     slipped from a 2002 target date to 2010. Problems With New          10
                                                Procedures
     This project focuses on redesigning
     airspace surrounding Los Angeles Note: Projects may have multiple
     International Airport. Problems in problems.
     developing new procedures and changes in project scope contributed to the
     delays.

   • The New York/New Jersey/Philadelphia Redesign project is behind
     schedule. This large, complex, and controversial project seeks to revamp
     airspace in the heavily traveled airways on the East Coast. Release of the
     draft environmental impact statement has slipped from 2003 to 2005, and it
     is unknown when the project will be fully implemented.

   • The Bay to Basin Redesign project slipped from a 2003 target date to 2008.
     This project addresses congestion and airspace limitations between the
     Los Angeles Basin and the San Francisco Bay in California. Delays are
     due to, among other things, problems in developing new procedures,
     acquiring new equipment, and changes to project scope.

The problems we found mean that FAA is at risk of not meeting expectations for
enhancing capacity as outlined in the Operational Evolution Plan or the Agency’s
strategic plan. An internal FAA study done in January 2004 found that about half
of the airspace redesign projects directly related to Operational Evolution Plan
initiatives were not on track to meet scheduled milestones. When we traced
FAA’s study results to the 42 projects approved in FY 2004, we found that




                                      vii
34 were related to Operational Evolution Plan initiatives, but half of the projects
(19 of 34) were behind schedule. These include efforts in San Francisco,
Los Angeles, and Las Vegas. FAA needs to do a much better job of assessing the
risks of airspace redesign projects and resource constraints early in the design
phase.

Planning and Coordination for Airspace Redesign Projects Are Not
Effective
FAA also needs to improve the process by which airspace redesign teams
coordinate and plan with other Agency organizations. We found that coordination
problems with airspace redesign projects exist on several fronts, especially with
FAA organizations responsible for managing both capital equipment and radio
frequencies. This lack of coordination has increased the cost of projects. It also
means that projects are being planned with insufficient attention to how much they
will cost or whether they can be implemented.

•   Coordination is ineffective between airspace design teams and FAA
    organizations that provide equipment for implementing airspace changes.
    Airspace changes often require new controller displays and communication
    equipment that are funded through the Facilities and Equipment account. FAA
    is pursuing many projects that may not be implemented or may be
    implemented outside schedule estimates because planning and implementation
    phases are not linked. For example, in FY 2004, 19 of the 42 approved
    projects had unresolved resource or equipment issues. These include efforts to
    revamp airspace in Seattle, Memphis, and Los Angeles. The lack of linkage
    with FAA’s budget can delay a project’s implementation by several years.

•   Coordination is also ineffective between airspace design teams and the FAA
    organization responsible for managing the radio frequency spectrum: the
    Office of Frequency Management. Airspace redesign projects often require
    new radio frequencies or adjustments to existing frequency assignments—close
    cooperation is essential. However, FAA officials responsible for managing the
    spectrum told us that they are not linked to local and regional NAR efforts and
    need to be. For example, of the 42 ongoing projects, 7 had problems with a
    lack of available frequencies. These include efforts in the Great Lakes
    Corridor and Northern California.

The importance of coordination, as well as resources (in terms of equipment and
available frequencies), is illustrated by Agency efforts to enhance capacity and
reduce delays at Chicago O’Hare Airport through the O’Hare Modernization Plan.
Chicago O’Hare Airport is planning to add one new runway, extend two existing
runways, and relocate three others. Airspace changes are expected to play a vital



                                      viii
role in reducing delays at O’Hare. The new runway is planned to open in 2007,
with the entire effort planned for completion in 2013.

The essential design for reducing delays at Chicago O’Hare in the near term
focuses on new procedures, new air traffic control sectors, and the establishment
of new routes to the East Coast and southern United States. Initially, four new
sectors will be needed, but as many as nine may be required. Figure 2 illustrates
the routes FAA intends to add.


     Figure 2. Current and Planned O’Hare Departure Routes




                  Today                      Planned and When Fully Implemented

The airspace changes specifically for the O’Hare effort are only part of several
planned airspace initiatives in the region, such as the Midwest Airspace
Enhancement project to improve traffic flows managed by the Cleveland and
Indianapolis Centers. At one time, various projects planned for the region
requested an additional 27 air traffic control sectors, of which only 21 were
validated by FAA Headquarters. Due to lack of resources, none of the validated
new sectors have been implemented.

The resource requirements for the O’Hare Modernization Program are significant,
and the key will be shifting from planning to actual implementation. Creating
additional sectors often has resource implications for FAA in terms of additional
controllers, equipment, and radio frequencies. How to deal with requests for new
sectors and the corresponding resource requirements nationwide is a matter the Air
Traffic Organization must address.

We note that FAA has taken a markedly different approach with the O’Hare
Modernization Program by establishing a special office to coordinate all Agency
efforts specifically for the airport modernization effort. This is a positive step, but
the airspace changes envisioned for O’Hare are complex and will require sustained
management attention. We are reviewing the O’Hare Modernization Program and


                                        ix
will discuss our results in a separate report. FAA needs to establish procedures to
ensure that all NAR efforts are coordinated with other FAA entities in a timely
manner and to link project development and implementation phases to the
Operations and Facilities and Equipment budgets.

FAA Can Take Steps To Make Airspace Redesign Efforts More
Cost Effective
FAA has opportunities to make its airspace redesign efforts more cost effective as
it fully transitions to the Air Traffic Organization, which will affect airspace
redesign efforts. We could not accurately estimate the savings that could be
achieved from greater controls over how projects are planned but believe it could
be substantial. In addition to the need for more discipline in how airspace
redesign efforts are managed, several other areas, such as prioritizing airspace
projects, addressing the need for additional sectors, and re-evaluating how
resources are used, require attention because they will materially affect the
effectiveness of FAA redesign efforts.

   • FAA needs to prioritize the 42 ongoing NAR projects to determine which
     projects provide the most benefits and to develop criteria for assessing a
     project’s system-wide impact. Setting priorities for airspace redesign
     initiatives is important because demands for implementing projects will
     likely exceed resources. FAA officials caution that implementing the
     O’Hare Modernization Program, with its related resource requirements,
     may limit the Agency’s ability to implement airspace efforts in other parts
     of the country for the next several years. FAA needs to set expectations for
     what can be done in the short- and long-term.

   • FAA must develop a strategy for redesigning and establishing air traffic
     control sectors. This is directly related to issues of productivity and
     resource requirements for the Air Traffic Organization. We found that
     airspace redesign teams often propose implementing additional sectors for
     managing traffic or adjusting existing ones without sufficient consideration
     of the implications. The Choke Point initiative added 19 sectors between
     2000 and 2002. The Chicago O’ Hare Modernization Program calls for an
     additional four sectors to be established, with a number of others to be
     added over the next several years.

      According to the Operational Evolution Plan, there are over 700 sectors in
      the National Airspace System and over 100 additional sectors under
      consideration. FAA is working to reduce the number of additional sectors
      needed. This is important because each additional sector can require
      additional controllers, equipment, and radio frequencies. According to
      FAA, a new sector can require as many as 10 additional controllers.

                                       x
      However, there are a limited number of controllers, and possible
      retirements could make it even more difficult to open new sectors. A
      limited amount of equipment and a nationwide shortage of radio
      frequencies are other problems. A strategy for addressing the creation of
      new sectors must take into account available resources, planned technology
      enhancements, expected size of the controller workforce, and the extent to
      which facilities can be consolidated.

   • FAA must re-evaluate roles and how resources are allocated and used by
     local and regional facilities to determine the most cost-effective and
     expeditious way to move forward with airspace redesign efforts. FAA
     records show that over 600 FAA employees are working on various
     airspace redesign efforts: 240 staff and 396 controllers. This excludes work
     on the high-altitude redesign project. This also excludes resources (about
     50 staff-years annually) provided by the Mitre Corporation, which
     functions as the Agency’s Federally funded research and development
     center. About half of FAA’s annual investment in airspace redesign efforts
     is spent on travel and overtime; the other half is spent on contracts
     principally for environmental work.

      Airspace redesign efforts have evolved from map and paper exercises at
      local facilities to ones that often require extensive simulation and computer
      modeling. Extensive analysis of benefits and potential system-wide effects
      are also critical factors. This explains Mitre’s increasing role in FAA
      airspace redesign efforts.

      Controllers are embedded in the planning process and are now expected to
      have expertise and receive training on new tools, benefit assessment,
      overall project management, and design of projects. Given pending
      retirements, FAA should rethink the controllers’ role in airspace redesign
      efforts, the stage of the process at which they can have the most impact, and
      what can and should be expected of them.

SUMMARY OF RECOMMENDATIONS
FAA’s airspace redesign efforts are important to enhance capacity and reduce
delays. While FAA can continue to rely on local and regional facilities to manage
airspace projects, greater oversight and control from the Agency’s Headquarters is
needed. We are making six recommendations aimed at strengthening FAA’s
process for airspace redesign and making efforts more cost effective. The full list
of recommendations can be found beginning on page 15. We are recommending
that FAA:



                                      xi
   • Establish cost and schedule controls—as if NAR were a major air traffic
     control initiative—for airspace redesign projects. Airspace redesign
     projects need reliable cost and schedule parameters, and plans should
     include costs for both planning and implementation.

   • Establish procedures to ensure that NAR efforts are coordinated with other
     FAA entities in a timely manner. As part of this effort, FAA should link
     the Operations and the Facilities and Equipment budgets to the NAR
     process. Also, FAA needs to ensure that constraints and risks (e.g., the
     availability of radio frequencies, Facilities and Equipment funds, and
     equipment) are factored into the process at the earliest stage.

   • Prioritize current NAR projects and establish criteria for assessing a
     project’s system-wide impact. This will help set expectations for what can
     be done in the short- and long-term.

   • Develop a strategy and establish guidelines for addressing the demand for
     new sectors. This strategy should take into account, among other things,
     planned technology enhancements, equipment and frequency limitations,
     and the expected size of the controller workforce.

   • Re-evaluate how resources are allocated and used by local and regional
     facilities to determine the most effective way to move forward with
     airspace redesign efforts. Controllers play a key role in airspace redesign,
     but FAA needs to examine ways to reduce the amount of administrative,
     planning, and airspace modeling work that is placed on them.

AGENCY COMMENTS AND OIG RESPONSE
Periodically during our review, we met with FAA officials responsible for
managing FAA’s airspace redesign efforts and informed them of our findings and
the need for corrective action. As a direct result, the Air Traffic Organization
recently began to craft a new approach for developing and managing airspace
redesign projects, including the establishment of a new executive steering
committee specifically for airspace management.

On March 11, 2005, we provided FAA with a draft of this report, and on March
25, 2005, we met with the Acting Director of System Operations and Safety and
other Agency officials to discuss FAA’s comments and response to our
recommendations. FAA officials stated that they agree with our findings and
recommendations. They stated that plans are being developed to address our
concerns about the lack of an effective process to establish priorities, lack of cost
and schedule controls, and insufficient coordination. On April 13, 2005, FAA


                                       xii
provided us with its formal written response, which is contained in its entirety in
the Appendix.

Generally, FAA views our report and its recommendations as a balanced
assessment of the NAR program. FAA’s written comments explain that the
Agency is developing a new plan (called the Airspace Management Action Plan)
for changing the way airspace projects are managed. These changes are intended
to link each project’s requirements to both the operations and capital budgets by
addressing procedural, environmental, technical, and staffing requirements with
participation across organizational lines. FAA believes these changes will permit
much tighter integration of cost and schedule management and thereby address the
recommendations contained in this report.

FAA stated that changes are underway to address our recommendations.
However, the Agency did not provide specific information on actions taken or
planned to address our recommendations. Given the important role airspace
redesign efforts play in enhancing capacity, a clear understanding of the specific
steps being taken to address our recommendations is needed. This is particularly
true for how FAA intends to address the need for new air traffic control sectors,
which has significant resource and productivity implications for the new Air
Traffic Organization.

ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your more detailed responses to each of our recommendations
within 30 calendar days. Please indicate the specific action taken or planned for
each recommendation and the target date for completion. You may provide
alternative courses of action that you believe would resolve the issues presented in
this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-0500 or Matt Hampton, Program Director, at (202) 366-1987.

                                         #

cc: Mr. Anthony Williams, ABU-100




                                      xiii
                                     TABLE OF CONTENTS


FINDINGS

    − FAA’s Management and Oversight of Airspace
      Redesign Efforts Are Fragmented, Costs and Schedules
      Are Not Reliable, Risks Are Not Effectively Mitigated,
      and Coordination Is Not Effective ................................................................ 1

    − FAA Has Opportunities To Make NAR Efforts More
      Cost Effective ............................................................................................. 12

RECOMMENDATIONS ...................................................................................... 15

EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY .......................... 17

EXHIBIT B. FAA SITES VISITED .................................................................... 18

EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT ......................... 19

APPENDIX. AGENCY COMMENTS ............................................................... 20
                                                                                                        1




FINDINGS

FAA’s Management and Oversight of Airspace Redesign Efforts
Are Fragmented, Costs and Schedules Are Not Reliable, Risks
Are Not Effectively Mitigated, and Coordination Is Not Effective
Our review found that FAA needs to improve the NAR project planning and
development process. Specifically, NAR project cost estimates are unreliable,
equipment and risks or resource needs are not adequately addressed, and NAR
personnel are not coordinating with other FAA personnel in a timely manner.
These issues are rooted in poor planning, lack of attention to budget and resource
constraints, and inability to link airspace projects with the Facilities and
Equipment account. As a result, project cost and schedule estimates are
unreliable, projects encounter unanticipated delays, and cost increases.

Perspectives on Airspace Redesign and Enhancing Capacity
Airspace redesign efforts have played and will continue to play a critical role in
enhancing capacity, transitioning to more flexible routing, and reducing delays.
FAA’s airspace redesign efforts are highlighted in both the Flight Plan 2004-2008
(the Agency’s strategic plan) and the Operational Evolution Plan (the blueprint
for enhancing capacity over the next decade). As we have noted in a previous
report on FAA’s capacity enhancing initiatives,1 the combination of airspace
redesign efforts, new procedures, and systems currently on board aircraft offer
significant potential to increase airport throughput and reduce delays.

Revamping the Nation’s airspace is important to meet the demand for air travel,
which is rebounding to 2000 levels in terms of flights and delays. In fact, the most
recent holiday season was projected to be the busiest in 5 years and to exceed
2000 holiday traffic levels (a period when air travel was at a peak) by 1.5 percent.
System-wide delays and cancellations also reached a peak during the December
2004 holiday travel period, with nearly half of all flights either delayed or
canceled during this period.

Airspace changes are critical to get the most benefits from new runways. For
example, the capacity increases and delay reductions envisioned through the
Chicago O’Hare Modernization Program (the addition of one new runway,
extension of two runways, and relocation of three others) depend on significant
airspace changes. For the first stage of the plan expected to be complete in 2007
(the new north runway only), a combination of airfield and airspace changes

1
    OIG Report Number AV-2003-048, “Status Report on FAA’s Operational Evolution Plan,” July 23, 2003. OIG
    reports can be found on our website: www.oig.dot.gov.
                                                                                                        2


provides for more than a 50 percent reduction in the average minutes of projected
delay per flight from 19.6 to 9.6 minutes. FAA and Mitre analyses show the new
north runway, without corresponding airspace changes, will have little impact on
delays.

Even without new runways, airspace changes can reduce congestion and enhance
the flow of air travel. FAA’s Choke Point initiative—the Agency’s effort to
revamp airspace in response to delays that reached intolerable levels in 2000—
focused on eliminating bottlenecks east of the Mississippi. It encompassed
21 initiatives, including the controversial “Yardley Robbinsville/Flip-Flop,” which
we reported on in May 2003.2

FAA reports that the Choke Point initiative reduced delays and resulted in an
annual savings to airspace users of $70 million. To address choke point problems,
FAA used a combination of techniques, including reorganizing existing air traffic
control sectors, creating new sectors, adjusting controller staffing, and modifying
aircraft routes. The initiative was viewed by the Agency as a modest step that
could be done easily and quickly, leading to more significant and complex
changes to the Nation’s airspace. It was successful because it was placed on a fast
track, had significant management oversight, and linked plans and resources—all
of which are best practices that need to be transferred to all airspace projects.
Also, we note that the Choke Point initiative was not subject to the normal process
for airspace redesign efforts.

FAA spends about $20 million annually on airspace redesign initiatives. Most
airspace redesign work is done at the local and regional levels jointly by
controllers and FAA management staff. One exception is the Headquarters-
managed High Altitude Redesign Project, which is an effort to revamp high-
altitude routes and take advantage of systems currently on board aircraft. Figure 3
illustrates airspace funding by FAA region.




2
    OIG Report Number AV-2003-042, “Airspace Redesign: Yardley/Robbinsville Flip-Flop,” May 20, 2003.
                                                                                            3




Figure 3. Total NAR Expenditures by Region, FY 2000-2004


  Alaskan Region
       $185,418



                                                              National Programs
                                                                  $29,347,290


                       Northwest
                     Mountain Region            Great Lakes
                                                  Region                             New England
                        $1,855,677
                                                 $7,869,159                            Region
                                                                                        $1,735,601

                                                                                Eastern Region
      Western Pacific                        Central Region                       $33,459,857
         Region*                                $2,631,668
          $6,826,516


                                     Southwest Region
                                         $2,672,988           Southern Region
                                                                 $4,426,273




 * Includes Hawaii



Thirty-seven percent of all NAR funds are spent on projects in the Eastern region,
which includes major airports in the New York, Philadelphia, and Washington,
DC, areas. The remaining funds are spent on projects in the other eight regions
(about 31 percent) and on FAA Headquarters’ initiatives (32 percent). FAA’s
work on airspace changes for enhancing capacity and reducing delays at Chicago
O’Hare International Airport is included in the total for the Great Lakes Region.
Congress recently directed that $5 million be earmarked in the FY 2005
Operations budget specifically for Chicago O’Hare airspace redesign. Also,
because of concerns about previous efforts to redesign airspace in the New
York/New Jersey/Philadelphia region, Congress has specifically directed FAA to
fund the New York/New Jersey/Philadelphia project.
                                                                                    4


FAA’s Management and Oversight of Airspace Redesign Efforts Are
Fragmented
Over the years, FAA has developed a process for developing and designing
airspace projects. This process is outlined in FAA’s Strategic Management Plan
for National Airspace Redesign, as well as in a memorandum of understanding
between FAA and the air traffic controllers’ union. The memorandum of
understanding allows controllers to be assigned to numerous national, regional,
and local workgroups and authorizes the use of “back fill” overtime to cover
absences when controllers are working on airspace projects.

The airspace redesign process begins at the local FAA facility and is driven by a
“bottom-up” approach, meaning that local and regional air traffic control facilities
are responsible for initiating, conducting, and managing the bulk of the work. The
Airspace Branch Management Office from the Air Traffic Division in each of
FAA’s nine Regional Headquarters has immediate oversight for NAR project
development.

In most cases, the local facility or region affected by an airspace problem or its
potential solutions assumes responsibility for project development, which includes
problem identification, initial problem evaluation, and initiation of an airspace
study. At each facility we visited, airspace redesign teams composed of FAA staff
and controllers from en route, terminal, and tower facilities were in place and
working on various airspace projects.

FAA Headquarters has responsibility for approving projects and establishing
funding levels. It also has responsibility for issues that involve multiple regions or
that have a greater impact on the National Airspace System. Prior to FY 2002,
FAA Headquarters provided funding to each region to be used at the region’s
discretion. Since then, FAA Headquarters has allocated funds to each region in a
piecemeal fashion and most approved projects receive some funding each year.

Although FAA Headquarters is responsible for approving projects and funding
levels, decision-making and program management is diffused. Decisions about
what projects to fund and at what level are essentially guided by consensus
decision-making through the Airspace Liaison Team, which is composed of FAA
management and controllers. Table 3 illustrates the fragmentation of decision
making and describes the various airspace redesign teams and working groups.
                                                                                                5




         Table 3. National Airspace Redesign Work Groups and
                                Functions
    National Airspace                                 Program Management and/or
        Redesign                                          Technical Functions
      Work Groups
Air Traffic Airspace                  Manages and develops policy for the NAR program, tracks
Management Program                    projects, chairs the Airspace Liaison Team, and serves as a
Office                                liaison with other programs.
Airspace Liaison Team                 Prioritizes and approves projects, allocates funding, and
(ALT)                                 implements planning
Subgroup of the ALT                   Works on national requirements, planning, and design
(SALT)
SALT Technical Teams                  Provides technical input and is established by SALT and
                                      disbanded at the completion of their tasks
Regional Focus Leadership             Assist in developing airspace solutions and coordinate
Teams                                 activities among facilities in the region
Facility Focus Leadership             Assist in developing airspace solutions, functions are
Teams                                 similar to those of the Regional Focus Leadership Teams
Facility Design Teams                 Works on local design, cross-regional facility design
Source: Strategic Management Plan for National Airspace Redesign (July 2002)

The Airspace Liaison Team makes recommendations for the distribution of funds
at an annual October meeting, with adjustments made at quarterly meetings. In
the past, these recommendations have translated into de facto programmatic
decisions. The funding allocation is by individual project, and every region
receives some funding. This scenario pits one region against another and makes it
difficult for airspace redesign to function as a national program. The overall
process has led to haphazard stops and starts with projects. Also, it is not
reflective of the current budget environment. Specifically:

     • In FY 2003, regional and local work groups submitted funding requests of
       $49 million, even though the previous year’s funding level was about
       $20 million. Later, FAA Headquarters instructed the work groups to plan
       for a total program funding level of $35 million, which proved unrealistic
       because the final funding allocation for airspace redesign projects was
       $23.7 million. Work on some NAR projects was stopped in April and May
       2003 when funds ran out, 4 to 5 months before the end of the fiscal year.

     • In FY 2004, regional and local work groups submitted funding requests of
       $47 million, even though Headquarters expected a funding level of about
       $27 million. When the budget was approved, $21 million was allocated to
                                                                                                         6


           airspace redesign efforts. Project managers set up projects reflective of
           their priorities—not necessarily system-wide priorities.

We shared our concerns about this process with the Director for Airspace, who
then took steps to bring more order to the process in FY 2005. For the first time,
FAA worked to establish priorities and did not fully fund all projects. However,
FAA has not yet standardized the effort.

Also, we found that there is minimal, if any, guidance and oversight—at either the
Headquarters or regional level—to ensure that project cost and schedule estimates
are reliable, resource needs and constraints are identified and resolved, and
projects are effectively coordinated among Agency organizations. As a result, the
vast majority of project cost and schedule estimates are unreliable, and projects
encounter unanticipated delays and cost increases that could have been avoided.

Costs and Schedules for Airspace Redesign Projects Are Not
Reliable
FAA estimated that its airspace redesign initiatives will cost approximately
$250 million, and mid-term initiatives would be complete by 2008. FAA never
established completion dates for longer-term projects. This amount excludes
implementation costs, which could be substantial. Also, the $250 million estimate
does not include significant resources provided by the Mitre Corporation, which
functions as a Federally funded research and development center for FAA.
Between FY 1999 and FY 2003, Mitre provided over 195 staff-years to support
various design efforts with airspace modeling studies and traffic flow studies
related to NAR projects. Another 50 Mitre staff-years were allocated for
FY 2004.3

Local and regional facilities develop project cost and schedule estimates.
However, this information is for the redesign phase only and does not adequately
address cost and schedule information for the implementation phase with respect
to new equipment (e.g., controller displays), staffing, and necessary radio
frequencies. FAA could not—nor could we—determine the costs of implementing
the 42 ongoing projects. Cost and schedules are not reliable for a number of
reasons:

      • Project teams did not develop cost and schedule estimates for projects
        beyond the design phase, and some projects did not forecast schedules and
        costs beyond the current fiscal year.


3
    Of the 245 Mitre staff-years devoted to NAR, only 38 (about 16 percent) were directly funded by the NAR
    program.
                                                                                                                  7


      • Project teams often did not fully identify requirements for implementing
        airspace projects.

      • Schedule estimates did not include lead times for acquiring equipment or
        implementing new procedures.

It is difficult to evaluate NAR projects because regions frequently change the
scope and direction of projects. When we began our review, there were over
80 ongoing projects, which were subsequently reduced to 42. Many smaller
projects were combined into larger ones. For example, the Salt Lake City Center
Airspace Redesign project used to be five separate projects, as did the Southern
California Redesign Project.

Moreover, airspace redesign project information at Headquarters was not always
consistent with region project information, and there is still uncertainty about the
accuracy of some information. For example, it took FAA several months to
provide documentation for the Portland International Airport Class B Airspace
project identified in a recent FAA report. FAA published inaccurate dates in its
Operational Evolution Plan for three airspace redesign initiatives because of these
problems. The fluid nature of the projects—without any controls in place—makes
it difficult to determine exactly how many NAR projects there are, how long it
will take to implement them, or how much they will cost.

A strategy with appropriate cost and schedule controls would improve the flow of
NAR projects from development through design and into implementation. A
strategy similar to the one FAA uses to address cost, schedule, and performance
problems in acquisitions would greatly benefit the NAR process.4 FAA major
acquisitions are expected to have reliable cost and schedule baselines and include
both costs for development and implementation. Major risks to efforts are
identified and mitigation strategies are required to address potential risks.
Moreover, major efforts have their costs and schedule baseline approved by the
Joint Resources Council (composed of senior-level decision makers). Projects that
significantly change scope or experience cost increases are expected to receive
another review. This type of discipline is clearly lacking in NAR projects.

FAA Must Mitigate a Wide Range of Risks to Airspace Redesign
Projects
Our analysis of the NAR project charters and status reports for the 42 approved
projects in FY 2004 reveals a substantial number of these projects have
implementation issues that could delay or stop the project. We found that

4
    FAA’s polices and procedures for major air traffic control initiatives are contained in the Agency’s Acquisition
    Management System.
                                                                               8


environmental issues, problems in developing new procedures, and changes in
scope can delay a project for 3 years or more. The completion dates for several
projects have slipped.

   • The Southern California Redesign project slipped from a 2002 target
     completion date to 2010. This project focuses on redesigning airspace
     surrounding the Los Angeles International Airport by transferring the
     responsibility for managing segments of airspace from the Los Angeles
     center to the Southern California terminal facility. The goal is to improve
     the flow of traffic to Los Angeles International, San Diego International,
     and other airports in the area. Problems in developing new procedures and
     changes in project scope contributed to delays.

   • The New York/New Jersey/Philadelphia Redesign project is behind
     schedule. This large, complex, and controversial project seeks to revamp
     airspace in the heavily travel airways on the East Coast. The proximity of
     Newark, Kennedy, LaGuardia, Philadelphia, and several regional and
     general aviation airports results in complex pilot and controller
     coordination and circuitous flight paths. The release of the draft
     environmental impact statement has slipped from 2003 to 2005, and it is
     unknown when the project will be fully implemented.

   • The Bay to Basin Redesign project slipped from a 2003 target completion
     date to 2008; this project addresses congestion and airspace limitation
     issues between the Los Angeles Basin and the San Francisco Bay in
     California. It is related to the Southern California Redesign project but is
     principally focused on high-altitude routes. Concerns about navigating
     special use airspace—airspace managed by the Department of Defense and
     FAA—is a complicating factor. Delays are due to, among other things,
     problems in developing new procedures, acquiring new equipment, and
     changes to project scope.

Airspace redesign projects face a wide range of risks, such as environmental
issues, unresolved resource issues, and frequent changes in scope. Table 4 shows
examples of issues that have affected NAR initiatives.
                                                                                                    9




     Table 4. Examples of Issues Affecting Select NAR Initiatives
          Project                                             Issues
                                Scope          Problems in         Unresolved           Environ-
                              Redefined?        Developing         Resources/            mental
                                                   New             Equipment            Issues?
                                               Procedures?          Issues?
Seattle Terminal Radar              Y                 N                  Y                  N
Approach Control
Airspace Redesign
Atlanta Air Route                   Y                 N                  Y                  N
Traffic Control Center
North South Flows
Las Vegas Terminal                  N                 Y                  N                  N
Redesign
Southern California                 Y                 Y                  N                  Y
Redesign
Denver Air Route                    Y                 N                  Y                  N
Traffic Control Center
  d i 4th Runway
Orlando                             Y                 N                  Y                  N
Airspace Redesign
Omaha Airspace                      N                 N                  Y                  Y
R d i Control
Honolulu                            N                 Y                  Y                  Y
Facility Redesign

Environmental issues are always a factor when adjusting airspace, but airspace
redesign efforts have been affected most recently by problems in developing new
procedures (for arrivals and departures) that rely on systems already on board
aircraft, such as flight management systems. This capability enjoys considerable
industry support, is referred to as Required Navigation Performance
(RNP/RNAV), and allows for more point-to-point navigation.5

After using new procedures on a limited basis at several locations, including
Charlotte Douglas, Dulles, and Las Vegas airports, FAA discovered numerous
problems. For example, FAA found that aircraft were taking unanticipated flight
paths and that more training for both pilots and controllers was needed. FAA
declared a moratorium for developing these procedures and subsequently
established an 18-step process for designing them. This resulted in a 2.5-year


5
    For additional details on these new procedures, see FAA’s Roadmap for Performance-Based Navigation
    (version 1.0, July 2003).
                                                                                  10


delay to any NAR project that had RNP/RNAV procedure development as a core
item.

In addition to environmental concerns and problems in developing new
procedures, we identified other risks in our visits to several FAA facilities.

Lack of Additional Frequencies Is a Limiting Factor. The lack of available
radio frequencies is also of particular concern, since establishing new sectors often
requires additional frequencies. While FAA estimates that the available spectrum
should accommodate aviation growth until around 2010, a lack of available
frequencies is already a concern in congested airspace near Chicago and Atlanta.
These limitations make it difficult to understand why so many new sectors were
proposed and why the level of effort on projects requiring new sectors is not
reduced.

For example, various airspace projects in the Midwest/Great Lakes Region
identified a need for 27 new sectors, which was subsequently reduced to
23 sectors. According to documentation supporting the projects, the full benefits
of these projects cannot be realized without implementing additional sectors.
However, the lack of frequencies may prevent or delay completion of these
projects.

Lack of Back-up Communications Equipment. Another limiting factor for
airspace redesign efforts and for establishing new sectors (assuming new
frequencies can be found) is the back-up communication equipment at facilities
that manage high-altitude traffic. Specifically, the capacity of the Voice
Switching Communications System (VSCS) and its backup system, the VSCS
Training and Backup System (VTABS) is limited to 50 positions in each center.
Currently, this system cannot be upgraded or expanded. FAA data show that 29 of
31 en route sector requests for new sectors are delayed because VTABS is not
available. We note that the Chicago Center is at the maximum capacity of
50 positions, and Cleveland is at 48 positions. FAA is reluctant to implement new
sectors without a back-up communications system.

The problems we found with NAR mean that FAA cannot meet expectations for
enhancing capacity as outlined in the Operational Evolution Plan. NAR projects
are essential to take advantage of new procedures and systems currently on board
aircraft. An internal FAA study done in January 2004 found that about half of the
airspace redesign projects directly related to Operational Evolution Plan
initiatives were not on track. When we traced FAA’s study results to the
42 projects approved in FY 2004, we found that 34 were related to Operational
Evolution Plan initiatives but half of the projects (19 of 34) were behind schedule.
                                                                               11


These include efforts in San Francisco, Los Angeles, and Las Vegas. Changes in
project scope, problems in developing new procedures, and environmental issues
are the primary reasons the projects may not meet their milestones.

Planning and Coordinating NAR Efforts Among FAA Stakeholders
Need To Be Improved
Projects are being planned with insufficient attention to how much they will cost
or whether the project can be implemented. We found major disconnections
between planning and implementation. Coordination problems exist on several
fronts with the FAA organization responsible for providing equipment and
managing radio frequencies.

   • For example, the Ft. Myers, FL, NAR team tried to obtain Facilities and
     Equipment (F&E) funding locally for controller display hardware needed
     for a radar position on a NAR project. Because they were unable to obtain
     the needed funds, they tried to obtain parts from locally available
     equipment but still did not have all the hardware needed and asked the
     region for help. What was originally estimated to cost $40,000 for local
     equipment ultimately increased to $140,000 for equipment, installation, and
     training. After review, FAA officials decided that the increased cost
     outweighed the benefits and did not approve the funding.

   • Another example of breakdown in coordination is the Memphis Center
     project. On the Memphis project, the estimated F&E cost to acquire and
     install equipment increased from $10,000 to $146,000, with an additional
     $636,500 needed to cover the cost of training and related overtime
     expenses.

Coordination is ineffective between airspace design teams and FAA organizations
that provide equipment (from the F&E account) for implementing airspace
changes.    Airspace changes often require new controller displays and
communication equipment. Currently, FAA is pursuing many projects that may
not be implemented or may be implemented outside their schedule estimates. The
following are efforts that require F&E funds to shift from planning to
implementation.

   •   The Anchorage Terminal Area Airspace Redesign project needs additional
       navigation equipment. This project will create new arrival and departure
       routes for the Anchorage area.

   •   The Great Lakes Region needs new sectors and equipment to support
       communications with military and civilian users. At one time, plans called
       for an additional 27 sectors. Projects in this area address the redesign of
                                                                                 12


       the en route high- and low-altitude structure, terminal airspace, and special
       use airspace in the region.

    • The Orlando 4th Runway project has a shortage of equipment and
      frequencies. The purpose of this project is to develop new procedures or
      redesign airspace or both to take full advantage of a new runway.

Also, coordination is a problem between airspace design teams and FAA
organizations responsible for managing the radio frequency spectrum. Airspace
redesign projects often require new radio frequencies or adjustments to existing
frequency assignments, so close cooperation is essential.           FAA officials
responsible for managing the spectrum told us that they are not linked to local and
regional NAR efforts and need to be.

The importance of effectively linking FAA offices, as well as the question of
resources in terms of equipment and available frequencies, is illustrated by
Agency efforts to enhance capacity and reduce delays at Chicago O’Hare. The
design for reducing delays at Chicago O’Hare establishes new routes to the East
Coast and southern United States from the airport. FAA then plans to add new
routes to the north and west of the airport. Initially, four new sectors will be
needed.

The establishment of new sectors is key for implementing these new routes and
taking advantage of new runways at Chicago O’Hare. Creating additional sectors
requires additional controllers, equipment, and radio frequencies. How to deal
with requests for new sectors—and the corresponding resources requirements—
nationwide is a matter the Air Traffic Organization must address.

FAA has taken a markedly different approach with the O’Hare Modernization
Program by establishing a special office to coordinate all Agency efforts
specifically for the airport modernization effort. This is a positive step, but FAA
needs to establish procedures to ensure that all NAR efforts are coordinated with
other FAA entities in a timely manner and link project development and
implementation phases to the Operations and F&E budgets.

FAA Has Opportunities To Make NAR Efforts More Cost Effective
FAA has opportunities to make its airspace redesign efforts more cost effective.
We could not estimate with any degree of accuracy the savings that could be
achieved in the $20 million annual investment in airspace redesign from greater
controls over how projects are planned but believe it is substantial. FAA is in the
process of transitioning to the Air Traffic Organization, and airspace redesign
efforts are a cross-cutting issue for the new organization.
                                                                                13


NAR is not yet operating as a national program as intended nor is it reflective of
FAA’s current budget environment. In addition to bringing more discipline to
airspace redesign efforts, there are several areas needing attention that will
materially affect the effectiveness of FAA redesign efforts. Those areas include
prioritizing airspace projects, addressing need for additional sectors, and
re-evaluating how resources are used.

   • Airspace projects should be prioritized.           Our review identified
     42 approved NAR projects, but FAA has not prioritized the NAR projects
     to ensure they are consistent with nationwide needs. Currently, priorities
     are loosely based on projects’ linkage to FAA’s Flight Plan and the
     Operational Evolution Plan, but this process has thus far been ineffective.
     Because FAA does not have established criteria for assessing a project’s
     system-wide impact, FAA may be using limited resources on NAR projects
     that are not cost effective or have minimal or no impact on the efficiency
     and effectiveness of the flow of air traffic.

      While the cost of implementing ongoing airspace projects is uncertain, it is
      likely the demands (for implementing projects) will outstrip resources.
      FAA officials caution that addressing concerns about the O’Hare projects
      resource requirements will limit the Agency’s ability to implement planned
      airspace efforts in other parts of the country. FAA needs to set expectations
      for what can be done in the short- and long-term given funding, spectrum,
      equipment, and staffing limitations.

   • FAA needs to develop a strategy for redesigning air traffic control
     sectors. According to the Operational Evolution Plan, there are over
     700 sectors in the National Airspace System and over 100 additional
     sectors under consideration. “Sectorization,” a common term in airspace
     redesign efforts, refers to the process whereby FAA divides airspace into
     appropriately sized and shaped volumes to facilitate the flow of traffic and
     provide for a manageable level of work for controllers assigned to each
     sector. The Choke Point initiative, which was a relatively modest change,
     resulted in 19 new sectors being established.

      FAA is working to reduce the number of additional sectors needed because
      each additional sector requires additional controllers, equipment, and radio
      frequencies. A new sector can require as many as 10 additional controllers.
      For the Choke Point initiative, FAA allocated 10 controllers to each new
      sector but there was no direct hiring. Most facilities accommodated the
      additional staffing requirements using overtime and existing staff.

      A limited number of controllers (14,934) and possible retirements could
      make it even more difficult to open new sectors. A finite amount of
                                                                            14


   equipment and a nationwide shortage of radio frequencies are other
   problems. While adding or splitting sectors appears to be the preferred way
   to alleviate key areas of congestion, FAA needs to determine the best
   approach for doing so. FAA must determine the right level of sectorization
   if a strategy to reduce the number of sectors is needed, which appears to be
   the case. This strategy must take into account available resources, planned
   technology enhancements, expected size of the controller workforce, and
   the extent to which facilities can be consolidated.

• FAA should re-evaluate how resources are allocated. Given changes in
  the industry, the current budget environment, and the growing
  sophistication of airspace modeling and simulation techniques, it is an
  opportune time to rethink how resources are allocated and used for airspace
  redesign efforts. According to FAA data, there are 636 FAA employees
  currently working on airspace redesign efforts: 240 managers and staff and
  396 controllers. This does not include resources being expended on the
  High Altitude Redesign effort or support provided by the Mitre
  Corporation. About half the airspace redesign funds are spent on travel and
  overtime. Figure 5 illustrates how airspace funds have been spent since
  FY 1999.


    Figure 5. National Airspace Redesign Expenditures
                       FYs 1999-2004
                  Rentals, utilities,
                                             Overtime
                   supplies, etc.
                                           ($28,951,025)
                   ($6,300,945)
                                               31%
                        7%                                     Travel
                                                           ($10,993,468)
                                                                12%




                Contracts/administrative
                support & environmental
                    ($48,016,513)
                          50%

   There is no question that controllers play an important role in airspace
   redesign, but they are asked to perform administrative and other duties
   outside the scope of their expertise. At the same time, airspace redesign
   efforts have changed from relying on maps and table exercises to complex
   efforts that require computer simulation and the quantification and
                                                                                  15


      assessment of benefits. This, in part, explains the Mitre Corporation’s
      commitment of resources to airspace redesign projects.

      While we agree that controller involvement is vital to NAR, FAA should
      re-evaluate the role of controllers in the NAR process, particularly in the
      administrative, project development, budgeting, and decision-making
      arenas. Further, many controllers had to be trained on various design tools,
      such as the Sector Design and Analysis Tool, the Terminal Area Route
      Generation Evaluation and Traffic Simulation, and MapInfo, before they
      could do any redesign work. Some controllers selected to perform
      administrative functions received training on Microsoft Project so they
      could perform NAR administrative work. Also, controllers had to receive
      training on how to do staff studies for NAR.

RECOMMENDATIONS
To improve the efficiency of the NAR program and to ensure the most effective
use of limited resources, changes are needed in the methods employed by FAA to
develop and implement NAR projects. We recommend that the Federal Aviation
Administrator:

   1. Establish cost and schedule controls—as if NAR were a major air traffic
      control initiative—for airspace redesign projects. Airspace redesign
      projects need reliable cost and schedule parameters, and plans should
      include costs for both planning and implementation. Airspace projects
      should obtain Headquarters’ approval and be revisited when scope and
      requirements change.

   2. Establish procedures to ensure that NAR efforts are coordinated with other
      FAA entities in a timely manner. As part of this effort, FAA should link
      the Operations and F&E budgets to the NAR process.

   3. Revise the current process for developing NAR projects to ensure that
      constraints and risks, (e.g., the availability of radio frequencies, F&E funds,
      and equipment) are factored into the process at the earliest stage.

   4. Prioritize current NAR projects and establish criteria for assessing a
      project’s system-wide impact. This will help set expectations for what can
      be done in the short- and long-term.

   5. Develop a strategy and establish guidelines for addressing the demand for
      new sectors. This strategy should take into account, among other things,
                                                                            16


   planned technology enhancements, equipment and frequency limitations,
   and the expected size of the controller workforce.

6. Re-evaluate how resources are allocated and used by local and regional
   facilities to determine the most effective away to move forward with
   airspace redesign efforts. Controllers play a key role in airspace redesign,
   but FAA needs to examine ways to reduce the amount of administrative,
   planning, and airspace modeling work that is placed on them.
                                                                                 17




EXHIBIT A. OBJECTIVE, SCOPE, AND
METHODOLOGY
The objective of this review was to determine (1) if FAA has an effective process
to control costs, mitigate risks, and coordinate local, regional, and Headquarters
efforts, and (2) whether opportunities exist for FAA to make airspace redesign
efforts more cost effective.

   •   To determine if FAA has an effective process for controlling costs,
       mitigating risks, and coordinating local, regional, and Headquarters efforts,
       we reviewed NAR project charters, spending plans, overtime and expense
       spreadsheets, project status reports, and other documents, as we deemed
       appropriate during the course of our review. We interviewed managers and
       staff of relevant FAA offices, representatives of the National Air Traffic
       Controllers Association who worked on NAR projects or participated in the
       NAR program, representatives of the Mitre Corporation, and members of
       various facility leadership and design teams, as well as the Airspace Liaison
       Team. In addition, we reviewed reports and testimonies issued by our
       office and FAA.

   •   To identify opportunities for improving the airspace redesign process and
       making it more cost effective, we reviewed the Strategic Management Plan
       for National Airspace Redesign and minutes of Airspace Liaison Team
       meetings to identify current NAR planning and implementation processes
       and problems arising from those processes.           We also met with
       representatives of Northwest Airlines, the National Air Traffic Controllers
       Association, and current and former FAA airspace managers.

We performed the audit from August 2003 through December 2004 and updated
our report to reflect recent developments with the Chicago O’Hare Modernization
Program. The audit was conducted in accordance with Government Auditing
Standards as prescribed by the Comptroller General of the United States and
included such tests of procedures, records, and other data as was warranted. In
particular, we obtained spreadsheets from the FAA’s Budgeting and Accounting
Tracking System and reviewed the process whereby data are entered, reviewed,
and corrected. We used the data solely to generate the overall cost of the NAR
program and identify projects that required closer scrutiny. Since the data we
obtained were not used to formulate our findings or recommendations, we did not
proceed to a full review of the Budgeting and Accounting Tracking System.



Exhibit A. Objective, Scope, and Methodology
                                                                        18




EXHIBIT B. FAA SITES VISITED

FAA Headquarters

Air Traffic Control System Command Center

Eastern Region
   Region Headquarters
   Region NAR Office
   New York Terminal Radar Approach Control (TRACON)
   New York Center
   LaGuardia Air Traffic Control Tower

Great Lakes Region
  Region Headquarters
  Chicago Center
  Detroit Air Traffic Control Tower

Northwest Mountain Region
  Region Headquarters
  Seattle TRACON
  Seattle Center

Southern Region
   Region Headquarters
   Atlanta Large TRACON
   Atlanta Center

Western Pacific Region
  Region Headquarters
  Southern California TRACON

Non-FAA Sites
  The Mitre Corporation’s Center for Advanced Aviation Systems Development




Exhibit B. FAA Sites Visited
                                                          19




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                 Title

  M. E. Hampton                        Program Director

  Fidel Cornell Jr.                    Project Manager

  Coletta Treakle                      Lead Analyst

  Raymond Denmark                      Senior Analyst

  Krystal Patrick                      Senior Analyst

  Jennifer Randall                     Analyst




Exhibit C. Major Contributors to This Report
                                                                                            20




           APPENDIX. AGENCY COMMENTS


                                                    Memorandum
Subject:   INFORMATION: FAA’s Response to                         Date:    April 13, 2005
           OIG Draft Report: Airspace Redesign
           Efforts Are Critical But Major
           Improvements Are Needed
  From:    Assistant Administrator for Financial               Reply to
                                                               Attn. of:
             Services and Chief Financial Officer

    To:    Assistant Inspector General for
             Aviation Audits

           As requested in your memorandum dated March 11, we are providing the
           following comments to the subject draft report.

           The implementation of the Air Traffic Organization (ATO) emphasizes strategic
           planning and integrated program management across service lines. This
           philosophy serves as the foundation for a renewed airspace management plan.
           This new plan takes projects from idea through implementation in an end-to-end
           process that bridges the gaps between the traditionally held view of operations
           and capital account activities. It is a complete program management activity that
           considers each component of National Airspace System (NAS) modernization--
           communications, navigation, surveillance, and air traffic management
           (CNS/ATM)--to enhance the capacity of the NAS. The National Airspace
           Redesign (NAR) design activities, while still critical to success, will become a
           subset of this overall activity.

           NAR evolved as a program from the late 1990s from the realization that
           immediate changes were needed in the NAS to keep pace with rapidly growing
           demand. Across the country, airspace design teams were formed in facilities and
           regions to undertake this assignment. Largely, they succeeded with the task
           they were given--to explore the problems in their own airspace and set about
           improving their service. They rapidly implemented what amounted to an almost
           continuous series of incremental sector design projects that generally keep pace
           with demand, despite a focused national strategy. A related activity was support


           Appendix. Agency Comments
                                                                                21


for the development of airspace plans to complement the Operational Evolution
Plan’s new runway initiatives.

The tools at their disposal were the creation of “more manageable” airspace
designs primarily through sector “splits” and realignment of workload among
sectors with static airspace boundaries. NAR was created to permit the
development of concepts and ideas that previously were not addressed as part of
the Capital Investment Plan because they were not acquisitions or new systems.
That very omission meant that the plans created in the field faced inadequate
staffing or equipment to implement many of their plans and designs.

Generally, we view the OIG report to be a balanced assessment of the NAR
program as it existed during the report period. However, as we discussed during
recent meetings with the report authors, many changes are underway to create
an end-to-end airspace management process. We believe these changes are
directly addressing the recommendations contained in the report. NAR airspace
design activities are only part of the total scope of NAS change management.
Within the ATO’s strategic management process, we are taking steps to
coordinate and validate airspace change needs among all of the stakeholder
organizations in the agency. This validation considers the cost-benefit ratio of
the proposal from the aviation community’s perspective and as a service
provider. It also evaluates the risk to implementation posed by environmental
processes and CNS/ATM technical limitations. With this key validation process
in place, complete funding requirements for each initiative will be planned in both
the operations and facilities and equipment accounts. As a result, cost and
schedule control become much more straightforward than in the past. This last
task will be accomplished with participation from each involved line of business
under the policy guidance and oversight of ATO’s Finance Services organization.

By linking each project’s requirements to both the operations and capital
budgets, we will address procedural, environmental, technical, and staffing
requirements in complete service implementation packages. This will permit
much tighter integration of cost and schedule management, along with increased
visibility for risks posed by any part of the program. We have learned many
lessons since the NAR program was established. Our successful experience
with the chokepoints initiative and, recently, with Domestic Reduced Vertical
Separation Minimum are leading to a more tightly integrated change
management process.

The recommendations raised by the OIG report serve to validate that we are on
the right track. We look forward to updating the OIG on our progress in the
months to come.


Ramesh K. Punwani



Appendix. Agency Comments
